HHS/OIG-Audit--"Review of Bureau of Health Care Delivery and Assistance Grant Awards to the National Association of Community Health Centers for Fiscal Years 1982 through 1991, (A-04-91-04067)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Bureau of Health Care Delivery and Assistance Grant Awards to the National Association of Community Health
Centers for Fiscal Years 1982 through 1991," (A-04-91-04067)
May 28, 1992
Complete
Text of Report is available in PDF format (352 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that grants awarded to the National Association of Community Health Centers (NACHC)
by the Bureau of Health Care Delivery and Assistance (BHCDA) for Fiscal Years 1982 through 1991 contained tasks that were
not clearly related to technical and other nonfinancial assistance as called for by grant terms. In addition, the BHCDA
did not compete the grants to other sources besides NACHC nor meet the minimum monitoring requirements of the Public Health
Service. Finally, a "Dues Assistance Plan" agreed to by BHCDA and NACHC resulted in NACHC receiving duplicate
funding of $274,697 in 1987.